Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




   A REVIEW OF CLAIMS FOR
   CAPPED RENTAL DURABLE
     MEDICAL EQUIPMENT




                    Daniel R. Levinson
                     Inspector General

                      August 2010
                     OEI-07-08-00550
   E X E C U T I V E                             S U M M A R Y


                  OBJECTIVES
                  1. To determine the extent to which Medicare erroneously allowed
                     claims for routine maintenance and servicing of beneficiary-rented
                     and beneficiary-owned capped rental durable medical equipment
                     (DME).

                  2. To determine the extent to which Medicare erroneously allowed
                     claims for repairs of beneficiary-rented capped rental DME.

                  3. To determine the extent to which Medicare allowed claims for
                     repairs of beneficiary-owned capped rental DME that failed to meet
                     payment requirements.

                  4. To determine the extent to which Medicare claims for repairs of
                     beneficiary-owned capped rental DME were questionable (i.e., were
                     missing information or had costly repairs relative to replacement
                     costs).

                  5. To describe how certain DME supplier practices adversely affected
                     beneficiaries with high-cost repairs.


                  BACKGROUND
                  DME is medical equipment that can withstand repeated use, serves a
                  medical purpose, is not useful in the absence of an illness or injury, and
                  is appropriate for home use. Pursuant to statute, regulation, and CMS
                  guidance, DME suppliers may receive payments for maintenance and
                  servicing, including repairs, only in certain circumstances. The Deficit
                  Reduction Act of 2005 (DRA) made changes to some of the
                  circumstances under which suppliers may receive payments for these
                  services. CMS contracts with Medicare Administrative Contractors
                  (MAC) for processing and payment of Medicare claims.

                  This study used three separate methodologies to address the five
                  objectives: (1) we reviewed the population of allowed routine
                  maintenance and servicing claims and allowed claims for repairs of
                  beneficiary-rented capped rental DME for the period 2006–2008
                  (objectives 1 and 2), (2) we reviewed suppliers’ records for a sample of
                  492 allowed claims for repair of beneficiary-owned capped rental DME
                  in 2007 (objectives 3 and 4), and (3) we conducted structured interviews
                  with beneficiaries and reviewed supplier records for high-cost repairs
                  (allowed repair claims in excess of $5,000) in 2007 (objective 5).



OEI-07-08-00550   A REVIEW   OF   CLAIMS   FOR   C A P P E D R E N TA L D U R A B L E M E D I C A L E Q U I P M E N T   i
E X E C U T I V E                   S U       M M A R Y




                   FINDINGS
                   From 2006 to 2008, Medicare erroneously allowed $2.2 million for
                   routine maintenance and servicing of capped rental DME with rental
                   periods after implementation of the DRA. Medicare erroneously
                   allowed 31,939 maintenance and servicing claims amounting to
                   $2.2 million. Medicare has never allowed payments for maintenance
                   and servicing for beneficiary-rented equipment, and the DRA effectively
                   eliminated routine maintenance and servicing for beneficiary-owned
                   DME with rental periods that began after January 1, 2006.
                   From 2006 to 2008, Medicare erroneously allowed nearly $4.4 million
                   for repairs for beneficary-rented capped rental DME. Medicare
                   erroneously allowed 40,452 claims amounting to nearly $4.4 million for
                   repairs of beneficiary-rented capped rental DME. Medicare has never
                   allowed payments for repairs of beneficiary-rented capped rental DME;
                   the costs of repairs are already included in the monthly rental payments
                   to suppliers.
                   In 2007, Medicare allowed nearly $27 million for repair claims of
                   beneficiary-owned capped rental DME that failed to meet payment
                   requirements. Of the $90 million allowed for capped rental DME repair
                   claims in 2007, nearly $27 million was for claims associated with
                   payment errors. Our review of supplier records indicate that 27 percent
                   of allowed repair claims for beneficiary-owned capped rental DME in
                   2007 lacked medical necessity, service, or delivery documentation or
                   represented repairs to DME still under manufacturer or supplier
                   warranties.
                   In 2007, Medicare allowed nearly $29 million for questionable repair
                   claims for capped rental DME. Of the $90 million allowed for capped
                   rental DME repair claims in 2007, nearly $29 million were for claims
                   that were questionable because of missing information and high dollar
                   allowed amounts for repairs relative to replacement costs. These claims
                   represent 49 percent of all allowed claims for repair of capped rental
                   DME in 2007.
                   Supplier practices adversely affected some beneficiaries with
                   high-cost repairs. Beneficiaries with high-cost allowed repairs with
                   whom we spoke reported that some suppliers failed to properly
                   customize power mobility devices (PMD), rendering the PMDs useless to
                   them, and that other suppliers did not offer loaner equipment when
                   repairing PMDs, leaving some beneficiaries immobile. Some

 OEI-07-08-00550   A REVIEW   OF   CLAIMS   FOR   C A P P E D R E N TA L D U R A B L E M E D I C A L E Q U I P M E N T   ii
E X E C U T I V E                   S U       M M A R Y


                   beneficiaries reported difficulties in contacting suppliers, and record
                   reviews indicated that suppliers charged some beneficiaries service fees
                   for repairs of capped rental DME. Finally, other beneficiaries reported
                   that suppliers failed to provide instructions about the proper use of
                   their equipment and information about repair charges.


                   RECOMMENDATIONS
                   CMS should take action to reduce erroneous payments and ensure
                   quality services for beneficiaries. To accomplish this, we recommend
                   that CMS:
                   Implement an edit to deny claims for routine maintenance and
                   servicing of capped rental DME with rental periods beginning after
                   January 1, 2006.
                   Implement an edit to deny claims for repair of beneficiary-rented
                   capped rental DME.
                   Improve enforcement of existing payment requirements for
                   beneficiary-owned capped rental DME.
                   Consider whether to require MACs to track accumulated repair
                   costs of capped rental DME.
                   Develop and implement safeguards to ensure that beneficiaries
                   have access to the services they require.
                   Take appropriate action on erroneously allowed claims for
                   maintenance and servicing, repair, and payment errors.


                   AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                   RESPONSE
                   In its written comments on the report, CMS agreed that maintaining
                   strong and effective controls to ensure accurate payment of capped
                   rental DME claims is essential. CMS responded positively to each of
                   our six recommendations and indicated that, in general, it will work to
                   improve its comprehensive oversight of capped rental maintenance and
                   servicing.

                   In response to the first and second recommendations, CMS stated that
                   it had implemented claim edits previously to instruct contractors to
                   deny claims for maintenance and servicing but will conduct further
                   systems analysis and implement additional edits, as required, to ensure
                   these claims are denied.

 OEI-07-08-00550   A REVIEW   OF   CLAIMS   FOR   C A P P E D R E N TA L D U R A B L E M E D I C A L E Q U I P M E N T   iii
E X E C U T I V E                   S U       M M A R Y


                   In response to the third recommendation, CMS concurred and said it
                   will communicate the policy of nonpayment of claims for repairs and
                   maintenance for items under a manufacturer’s or supplier’s warranty to
                   contractors and suppliers.

                   In response to the fourth recommendation, CMS agreed to consider the
                   feasibility of requiring MACs to obtain serial numbers of repaired
                   equipment and track accumulated repair costs.

                   In response to the fifth recommendation, CMS stated that it will issue
                   guidance to DME suppliers advising them that beneficiaries should not
                   be charged service fees above the capped rental fee unless an Advanced
                   Beneficiary Notice is signed.

                   In response to the sixth recommendation, CMS concurred and said it
                   will send information about the erroneously allowed claims to the
                   contractors.




 OEI-07-08-00550   A REVIEW   OF   CLAIMS   FOR   C A P P E D R E N TA L D U R A B L E M E D I C A L E Q U I P M E N T   iv
   T A B L E          O F            C O N T E N T S



         EXECUTIVE SUMMARY .....................................i



         INTRODUCTION ........................................... 1



         F I N D I N G S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
                    From 2006 to 2008, Medicare erroneously allowed $2.2 million for
                    routine maintenance and servicing of capped rental DME with
                    rental periods after implementation of the DRA . . . . . . . . . . . . . . 13

                    From 2006 to 2008, Medicare erroneously allowed nearly
                    $4.4 million for repairs for capped rental DME during
                    rental periods . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14

                    In 2007, Medicare allowed nearly $27 million for repair claims for
                    beneficiary-owned capped rental DME that failed to meet
                    payment requirements . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14

                    In 2007, Medicare allowed nearly $29 million for questionable
                    repair claims for beneficiary-owned capped rental DME . . . . . . . 17

                    Supplier practices adversely affected some beneficiaries with
                    high-cost repairs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19



         R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22
                    Agency Comments and Office of Inspector General Response . . . 23



         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25
                    A: Point Estimates and Confidence Intervals . . . . . . . . . . . . . . . . 25

                    B: Case Examples of Allowed Claims That Failed to Meet
                       Payment Requirements . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27

                    C: Net Payment Errors and Questionable Claims . . . . . . . . . . . . 28

                    D: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29



         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 33
   I N T R O D U C T I O N


                  OBJECTIVES
                  1. To determine the extent to which Medicare erroneously allowed
                     claims for routine maintenance and servicing of beneficiary-rented
                     and beneficiary-owned capped rental durable medical equipment
                     (DME).

                  2. To determine the extent to which Medicare erroneously allowed
                     claims for repairs of beneficiary-rented capped rental DME.

                  3. To determine the extent to which Medicare allowed claims for
                     repairs of beneficiary-owned capped rental DME that failed to meet
                     payment requirements.

                  4. To determine the extent to which Medicare claims for repairs of
                     beneficiary-owned capped rental DME were questionable (i.e., were
                     missing information or had costly repairs relative to replacement
                     costs).

                  5. To describe how certain DME supplier practices adversely affected
                     beneficiaries with high-cost repairs.


                  BACKGROUND
                  DME is medical equipment that can withstand repeated use, is used
                  primarily and customarily to serve a medical purpose, generally is not
                  useful to a person in the absence of an illness or injury, and is
                  appropriate for use in the home. 1, 2 Medicare coverage of DME is
                  subject to the requirement that the equipment be necessary and
                  reasonable for treatment of an illness or injury or to improve the
                  functioning of a malformed body member. 3 Medicare guidance states
                  that the reasonable useful lifetime of DME should be at least 5 years,4
                  after which a beneficiary may elect to obtain a replacement. 5


                    1 42 CFR § 414.202; Centers for Medicare & Medicaid Services (CMS),   Medicare Benefit
                  Policy Manual (Internet Only Manual), Pub. 100-02, ch. 15, § 110.1. Accessed online at
                  http://www.cms.gov on January 22, 2010.
                     2 42 CFR § 414.210(b); there are six categories of DME: (1) capped rental DME, (2) DME
                  requiring frequent or substantial servicing, (3) prosthetics and orthotics supplies,
                  (4) inexpensive or routinely used DME not exceeding $150, (5) customized equipment, and
                  (6) oxygen and oxygen equipment.
                    3 Social Security Act (the Act) § 1862(a).
                    4 42 CFR § 414.210(f)(1).
                    5 CMS, Medicare Benefit Policy Manual (Internet Only Manual), Pub. 100-02,
                  ch. 15, § 110.2.C. Accessed online at http://www.cms.gov on January 22, 2010.



OEI-07-08-00550   A REVIEW   OF   CLAIMS   FOR   C A P P E D R E N TA L D U R A B L E M E D I C A L E Q U I P M E N T   1
I N T R O D        U C T        I O N


                    Capped rental DME is a category of DME for which Medicare
                    contractors pay DME suppliers a fee schedule amount that is “capped”
                    after a certain number of continuous months of rental to a Medicare
                    beneficiary. 6 Examples include power mobility devices (PMD), 7 hospital
                    beds, continuous positive airway pressure devices, commodes, and
                    walkers. The Medicare statute governing capped rental items
                    specifically provides for payments for the maintenance and servicing of
                    capped rental equipment. Repairs are included within the category of
                    maintenance and servicing. 8 During the beneficiaries’ use of capped
                    rental DME, Medicare will pay for maintenance and servicing, including
                    repairs, depending on when the capped rental DME was first rented,
                    who owns the DME, and what types of repairs need to be made.
                    The Deficit Reduction Act of 2005 and Maintenance and Servicing
                    The implementation of the Deficit Reduction Act of 2005 (DRA) altered
                    Medicare coverage of routine maintenance and servicing (generally
                    every 6 months) of capped rental equipment.

                    Coverage of maintenance and servicing during the rental period. Both
                    before and after the implementation of the DRA, Medicare did not cover
                    maintenance and servicing during the rental period, “since [suppliers] of
                    equipment recover from the rental charge the expenses they incur in
                    maintaining in working order the equipment they rent out ….” 9
                    Coverage of maintenance and servicing of beneficiary-owned equipment.
                    Both before and after the implementation of the DRA, Medicare covered
                    nonroutine maintenance and servicing costs of capped rental DME after
                    the beneficiary had obtained the title to the equipment. 10 CMS has
                    determined that under the maintenance and servicing provisions of the
                    DRA applicable to beneficiary-owned equipment, repairs necessary to



                      6 CMS,   Medicare Claims Processing Manual (Internet Only Manual), Pub. 100-04,
                    ch. 20, § 30.5. Accessed online at http://www.cms.gov on January 22, 2010.
                      7 PMDs include power wheelchairs and scooters.
                      8 The Act § 1834(a)(7)(A)(iv). CMS, Medicare Benefit  Policy Manual (Internet Only
                    Manual), Pub. 100-02, ch. 15, §§ 110.2.A and B; CMS, Medicare Claims Processing Manual
                    (Internet Only Manual), Pub. 100-04, ch. 20, § 10.2. Accessed online at http://www.cms.gov
                    on January 22, 2010.
                      9 CMS,   Medicare Benefit Policy Manual (Internet Only Manual), Pub. 100-02,
                    ch. 15, § 110.2. Accessed online at http://www.cms.gov on January 22, 2010.
                      10 The Act § 1834(a) (pre- and post-DRA); 42 CFR §§ 414.229(e) and (f); and CMS,

                    Medicare Benefit Policy Manual (Internet Only Manual), Pub. 100-02, ch. 15, § 110.2.
                    Accessed online at http://www.cms.gov on January 22, 2010.



 OEI-07-08-00550    A REVIEW   OF   CLAIMS   FOR   C A P P E D R E N TA L D U R A B L E M E D I C A L E Q U I P M E N T   2
I N T R O D        U C T        I O N


                    make the equipment serviceable are covered. 11 Further, “extensive
                    maintenance which … is to be performed by authorized technicians” is
                    covered as a repair. However, “routine periodic servicing, such as
                    testing, cleaning, regulating, and checking … is not covered.” 12 The
                    Medicare statute has never provided for routine maintenance and
                    servicing of beneficiary-owned equipment, yet prior to implementation
                    of the DRA, it did allow for routine maintenance and servicing of
                    supplier-owned equipment (an option that the DRA eliminated for
                    capped rental DME).

                    Coverage of maintenance and servicing of supplier-owned equipment.
                    Prior to the implementation of the DRA on January 1, 2006,
                    beneficiaries had to choose at the 10th month of rental to either
                    (1) assume ownership after 13 months of continuous rental or (2) permit
                    the DME supplier to retain ownership. If the supplier retained
                    ownership after 15 months of continuous rental, the supplier was
                    required to continue providing the item to the beneficiary free of charge
                    for the period of medical necessity. 13 In the case of power-driven
                    wheelchairs, beneficiaries also had the option to purchase the DME on a
                    lump-sum basis in lieu of rental. 14 The Medicare statute provided for
                    payments every 6 months to suppliers for the cost of routine
                    maintenance and servicing of supplier-owned equipment after the rental
                    period. 15 These routine maintenance and servicing claims, designated
                    with the MS modifier, 16 began 6 months after the end of the final rental




                       11 42 CFR § 414.229(e)(3) (containing the pre-DRA rule). See also CMS’s implementation

                    of the pre-DRA rule in its Medicare Benefit Policy Manual (Internet Only Manual),
                    Pub. 100-02, ch. 15, § 110.2.A. Accessed online at http://www.cms.gov on January 22, 2010.
                      12 CMS, Medicare Benefit Policy Manual (Internet Only Manual), Pub. 100-02,
                    ch. 15, § 110.2. Accessed online at http://www.cms.gov on January 22, 2010.
                      13 The Act § 1834(a)(7)(A) (pre-DRA); 42 CFR § 414.229(d) (containing the pre-DRA rule).
                    See also CMS’s implementation of the pre-DRA rule in its Medicare Claims Processing
                    Manual (Internet Only Manual), Pub. 100-04, ch. 20, § 30.5. Accessed online at
                    http://www.cms.gov on January 22, 2010.
                      14 Ibid.
                      15 The Act § 1834(a)(7)(A) (pre-DRA), 42 CFR § 414.229(e) (containing the pre-DRA rule),
                    and CMS, Medicare Benefits Policy Manual (Internet Only Manual), Pub. 100-02, ch. 15, §
                    110.2. Accessed online at http://www.cms.gov on January 22, 2010.
                      16 Modifiers are used when the information provided by a Healthcare Common Procedure
                    Coding System (HCPCS) code needs to be supplemented to identify specific circumstances
                    that may apply to an item or a service.



 OEI-07-08-00550    A REVIEW   OF   CLAIMS   FOR   C A P P E D R E N TA L D U R A B L E M E D I C A L E Q U I P M E N T   3
I N T R O D        U C T        I O N


                    month or after the end of the period the item was no longer covered
                    under the supplier or manufacturer warranty, whichever was later. 17
                    The Office of Inspector General (OIG) released the report Medicare
                    Maintenance Payments for Capped Rental Equipment
                    (OEI-03-00-00410) in June 2002. In that report, OIG reviewed
                    Medicare claims from 2000 and found that DME suppliers provided
                    actual service for only 9 percent of claims for maintenance and
                    servicing. Medicare would have saved $98 million of the $102 million
                    allowed for maintenance and servicing during 2000 if it instead had
                    allowed only for repairs as needed.
                    Subsequently, section 5101(a) of the DRA revised the payment rules for
                    capped rental DME to reduce Medicare expenditures and beneficiary
                    coinsurance. 18 The DRA eliminated the option for suppliers to keep the
                    title to capped rental DME after 15 months of continuous rental. The
                    DRA also eliminated a supplier’s ability to bill every 6 months for
                    routine maintenance and servicing of supplier-owned equipment with
                    new rental periods beginning January 1, 2006. 19 Consequently, the
                    only maintenance and servicing payments with the MS modifier allowed
                    after January 1, 2006, should be for supplier- owned capped rental DME
                    with rental periods beginning prior to that date. 20
                    Repair of Beneficiary-Owned Capped Rental DME
                    When ownership of the capped rental item is transferred to the
                    beneficiary, Medicare allows for repair when necessary to make the




                      17 42 CFR § 414.229(e)(2) (containing the pre-DRA rule); see also CMS’s implementation
                    of the pre-DRA rule in its Medicare Benefits Policy Manual (Internet Only Manual),
                    Pub. 100-02, ch. 15, § 110.2.B. Accessed online at http://www.cms.gov on January 22, 2010.
                      18 CMS,  Fact Sheet: Changes to Medicare Payment for Oxygen Equipment, Oxygen
                    Contents, and Capped Rental Durable Medical Equipment. November 1, 2006. Accessed
                    online at http://www.cms.gov on January 22, 2010.
                      19 CMS, Medicare Claims Processing Manual (Internet Only Manual), Pub. 100-04,
                    change request 5461 (February 2, 2007). Accessed online at http://www.cms.gov on
                    January 22, 2010.
                      20 CMS, Medicare Claims Processing (Internet Only Manual), Pub 100-04, Change
                    Request 5461. Accessed online at http://www.cms.gov on January 22, 2010.




 OEI-07-08-00550    A REVIEW   OF   CLAIMS   FOR   C A P P E D R E N TA L D U R A B L E M E D I C A L E Q U I P M E N T   4
I N T R O D        U C T        I O N


                    equipment serviceable. 21, 22 In 2007, Medicare allowed 679,000 claims
                    amounting to $90.1 million for repairs of capped rental DME. 23
                    Payment requirements. Medicare pays for repairs of capped rental DME
                    that beneficiaries own when those repairs are necessary to make it
                    serviceable. 24 Medicare covers repairs up to the cost of replacement for
                    medically necessary equipment owned by the beneficiary. 25 Medicare
                    does not allow for routine, periodic maintenance of beneficiary-owned
                    equipment, such as testing, cleaning, and regulating of equipment. 26
                    Medicare also does not pay for parts and labor covered by a supplier or
                    manufacturer warranty. 27 If the expense for repairs exceeds the
                    estimated expense of purchasing or renting another item for the
                    remaining period of medical need, no payment can be made for the
                    amount of excess. 28
                    Repair claims can cover the following:

                         replacement of the DME;

                         replacement parts for the DME (e.g., a new motor for a PMD);
                          and/or

                         labor costs associated with repairing the DME, replacing the DME,
                          or repairing parts of the DME. 29



                        21 The Act § 1834(a)(7)(A)(iv); 42 CFR §§ 414.210(e)(5) and 414.229(f)(3).
                        22 CMS, Medicare Benefits Policy Manual (Internet Only Manual), Pub. 100-02,
                    ch. 15, § 110.2.A. Accessed online at http://www.cms.gov on January 22, 2010.
                     23 Capped rental DME during rental periods were identified by one of three modifiers:
                    KH (first rental month), KI (second rental month), and KJ (rental months 3 to 13).
                      24 42 CFR §§ 414.210(e)(1) and 414.229(f)(3); Medicare Benefits Policy Manual,
                    Pub. 100-02, ch. 15, § 110.2.A; and CMS, Medicare Claims Processing Manual (Internet
                    Only Manual), Pub. 100-04, ch. 20, § 10.2. Accessed online at http://www.cms.gov on
                    January 22, 2010.
                        25 CMS, Medicare Benefit Policy Manual (Internet Only Manual), Pub. 100-02,
                    ch. 15, § 110.2.C. Accessed online at http://www.cms.gov on January 22, 2010.
                        26 CMS, Medicare Benefit Policy Manual (Internet Only Manual), Pub. 100-02,
                    ch. 15, § 110.2.B. Accessed online at http://www.cms.gov on January 22, 2010.
                        27 42 CFR §§ 414.210(e)(1) and 414.229(f)(3).
                        28 CMS, Medicare Benefit Policy Manual (Internet Only Manual), Pub. 100-02,
                    ch. 15, § 110.2.A. Accessed online at http://www.cms.gov on January 22, 2010.
                      29 CMS, Provider Inquiry Assistance Changes in Payment for Oxygen Equipment as a
                    Result of the Medicare Improvements for Patients and Providers Act (MIPPA) of 2008 and
                    Additional Instructions Regarding Payment for Durable Medical Equipment Prosthetics
                    Orthotics & Supplies (DMEPOS), Pub. 100-20, Change Request 6297, December 23, 2008.
                    Accessed online at http://www.cms.gov on January 22, 2010.



 OEI-07-08-00550    A REVIEW   OF   CLAIMS   FOR   C A P P E D R E N TA L D U R A B L E M E D I C A L E Q U I P M E N T   5
I N T R O D        U C T        I O N


                    In 2007, repair claims for replacement parts should have used the
                    HCPCS modifier RP (repair) in conjunction with the HCPCS code for
                    the replacement part. 30 Repair claims for labor costs should use
                    HCPCS code E1340. Payment allowances for the HCPCS code E1340
                    are based on a fee schedule (one unit of service for 15 minutes of labor)
                    and are adjusted to reflect local wages. 31

                    When suppliers (including DME suppliers) accept Medicare assignment,
                    they accept Medicare reimbursement as payment in full and should not
                    collect more than the deductible and coinsurance from beneficiaries. 32
                    They should not bill beneficiaries for service fees to repair capped rental
                    DME. 33 Suppliers receive additional reimbursement when they loan
                    DME to beneficiaries while their original DME is being repaired. 34
                    Documentation requirements. DME suppliers are required to keep
                    physician prescriptions on file and must have orders from treating
                    physicians before dispensing DME. 35 A new order is required when
                    there is a change in the order for the accessory, when an item is
                    renewed, when an item is replaced, and when there is a change in the
                    supplier. 36 This documentation provides evidence of medical necessity
                    of the capped rental DME. When claims for repair are submitted, the
                    supporting documentation should include the HCPCS code of the capped
                    rental DME being repaired and must indicate that the capped rental
                    DME is beneficiary owned. 37


                      30 CMS, Medicare Claims Processing Manual, Pub. 100-04, Change Request 5461,

                    February 2, 2007. During the period of our review, the RP modifier was used for repairs or
                    replacement while the MS modifier was used for routine maintenance and servicing.
                    Subsequent to the period of our claims, CMS instituted separate modifiers for replacement
                    and repair, RA and RB, respectively. CMS, Changes in Payment for Oxygen Equipment as
                    a Result of the Medicare Improvements for Patients and Providers Act (MIPPA) of 2008 and
                    Additional Instructions Regarding Payment for DMEPOS, Pub. 100-20, Change Request
                    6297, December 23, 2008. Accessed online at http://www.cms.gov on January 22, 2010.
                      31 American Medical Association, Medicare’s National Level II Codes, 2007.
                      32 CMS, Medicare Claims Processing Manual (Internet Only Manual), Pub. 100-04,
                    ch. 1, § 30.3.2. Accessed online at http://www.cms.gov on January 22, 2010.
                      33 42 CFR § 424.57(c)(14).
                      34 CMS, Medicare Claims Processing      Manual (Internet Only Manual), Pub. 100-04,
                    ch. 20, § 40.1. Accessed online at http://www.cms.gov on January 22, 2010.
                      35 CMS, Medicare Program Integrity Manual (Internet Only Manual), Pub. 100-08,
                    ch. 5, § 5.2.1. Accessed online at http://www.cms.gov on January 22, 2010.
                      36 CMS, Medicare Program Integrity Manual (Internet Only Manual), Pub. 100-08,
                    ch. 5, § 5.2.4. Accessed online at http://www.cms.gov on January 22, 2010.
                      37 CMS, Medicare Claims Processing Manual (Internet Only Manual), Pub. 100-04,
                    ch. 20, § 10.2.B. Accessed online at http://www.cms.gov on January 22, 2010.



 OEI-07-08-00550    A REVIEW   OF   CLAIMS   FOR   C A P P E D R E N TA L D U R A B L E M E D I C A L E Q U I P M E N T   6
I N T R O D        U C T        I O N


                    When suppliers deliver DME to beneficiaries, Medicare requires
                    documentation of delivery and recommends that the documentation
                    include: (1) beneficiary’s name, (2) quantity delivered, (3) detailed
                    description of the replacement parts or repaired DME being delivered,
                    (4) brand name, and (5) serial number. 38 The beneficiary’s (or
                    designee’s) signature should be included on the delivery slip or proof of
                    delivery. 39 Suppliers must also provide beneficiaries with necessary
                    information and instructions (e.g., owner’s manual and warranty
                    information) on how to use their capped rental DME safely and
                    effectively. 40
                    Additional matters considered. Medicare provides guidance to Medicare
                    Administrative Contractors (MAC) 41 for consideration when
                    reimbursing for repairs. For example, MACs may consider whether
                    accumulated repair costs for capped rental DME exceed 60 percent of
                    the cost for a replacement item when they determine whether to replace
                    equipment that does not function during the reasonable useful
                    lifetime. 42
                    In addition, if MACs determine that the capped rental DME will not
                    last its reasonable useful lifetime, they may hold suppliers responsible
                    for furnishing replacement capped rental DME at no cost to
                    beneficiaries or the Medicare program. 43




                      38 42 CFR § 424.57(c)(12); CMS,   Medicare Program Integrity Manual (Internet Only
                    Manual), Pub. 100-08, ch. 4, § 4.26.1. Accessed online at http://www.cms.gov on
                    January 22, 2010.
                      39 CMS,    Medicare Program Integrity Manual (Internet Only Manual), Pub. 100-08,
                    ch. 4, § 4.26.1. Accessed online at http://www.cms.gov on January 22, 2010.
                      40 42 CFR § 424.57(c)(12).
                      41 MACs serve as the primary points of contact for provider enrollment, Medicare
                    coverage and billing requirements, and processing and payment of Medicare fee-for-service
                    claims.
                      42 71 Fed. Reg., No. 217 (Nov. 9, 2006), p. 65921. This was originally proposed by CMS
                    as a requirement, but included in the Final Rule as a matter for the MACs’ consideration.
                    CMS does not pay repair costs for prosthetics that exceed 60 percent of the cost for a
                    replacement item.
                      43 42 CFR § 414.210(e)(5).




 OEI-07-08-00550    A REVIEW   OF   CLAIMS   FOR   C A P P E D R E N TA L D U R A B L E M E D I C A L E Q U I P M E N T   7
I N T R O D        U C T        I O N




                    METHODOLOGY
                    This study used three separate methodologies to address our five study
                    objectives.

                    Objectives 1 and 2
                    To determine the extent to which Medicare erroneously allowed
                    (1) claims for routine maintenance and servicing of beneficiary-rented
                    and beneficiary-owned capped rental DME and (2) claims for repairs of
                    beneficiary-rented capped rental DME.
                    Population identification. Using the 2005, 2006, 2007, and 2008 DME
                    Standard Analytical Files from the National Claims History file, we
                    identified claims for capped rental DME with rental periods beginning
                    on or after implementation of the DRA on January 1, 2006.
                    Identification of maintenance and servicing claims. We analyzed capped
                    rental DME claims for rental periods beginning on or after
                    implementation of the DRA to identify erroneously allowed routine
                    maintenance and servicing claims for the period 2006 through 2008. We
                    identified maintenance and servicing claims with the MS modifier for
                    those capped rental months.

                    To identify beneficiary-rented capped rental DME, we identified claims
                    with a KH, KI, or KJ modifier designating a specific rental month. 44 We
                    determined whether routine maintenance and servicing claims for
                    capped rental DME were allowed during rental periods. To identify
                    beneficiary-owned capped rental DME, we identified claims with a BP
                    modifier (i.e., beneficiary purchased). For rentals beginning after
                    implementation of the DRA, we identified capped rental DME as
                    transitioning from beneficiary-rented to beneficiary-owned when the
                    rental month modifiers were no longer attached to the claim. Separate
                    payments for routine maintenance and servicing for capped rental DME
                    during the rental period or after ownership has transitioned to the
                    beneficiary have never been allowed.
                    Identification of repair claims for beneficiary-rented capped rental DME.
                    Although the DRA did not change how Medicare should pay repair
                    claims for capped rental DME, we sought to determine whether repair
                    claims volume and/or payment amounts increased after implementation

                     44 Capped rental DME during rental periods were identified by one of three modifiers:
                    KH (first rental month), KI (second rental month), and KJ (rental months 3 to 13).



 OEI-07-08-00550    A REVIEW   OF   CLAIMS   FOR   C A P P E D R E N TA L D U R A B L E M E D I C A L E Q U I P M E N T   8
I N T R O D        U C T        I O N


                    of the DRA to potentially offset the loss of the routine maintenance and
                    servicing payments. We analyzed repair claims for beneficiary-rented
                    capped rental DME for rental periods beginning on or after January 1,
                    2006, to identify erroneously allowed repair claims from 2006 to 2008.

                    We defined the rental period as the period beginning with the first use
                    of the KH modifier and terminating up to 12 months thereafter,
                    depending on the presence of KI or KJ modifiers; thus, we did not
                    include any rental periods that may have begun prior to the DRA.

                    For the claims during the rental period that we identified above, we
                    determined whether an RP modifier was present, indicating a repair
                    claim. Separately itemized charges for repair of capped rental DME
                    equipment are not allowed during the rental period.
                    Objectives 3 and 4
                    To determine the extent to which Medicare (3) allowed claims for repairs
                    of beneficiary-owned capped rental DME that failed to meet payment
                    requirements and (4) allowed claims for repairs of beneficiary-owned
                    capped rental DME that were questionable.
                    Population and sample identification. We reviewed 2007 Medicare-allowed
                    capped rental DME repair claims to determine whether claims were
                    correctly allowed based on payment and documentation requirements
                    and whether claims were questionable. These objectives were limited to
                    2007 data only because of the type of methodology used (record review),
                    whereas the two previous objectives relied on a review of claims data
                    alone. We did not include claims for oxygen equipment and related
                    supplies because those DME are capped after 36 months of continuous
                    rental.

                    Using the 2007 DME Standard Analytical File from the National
                    Claims History file, we identified allowed repair claims for
                    beneficiary-owned capped rental DME. We excluded 9,957 claims under
                    $1 from this population as these claims represented 1 percent of the
                    expenditures and 2 percent of capped rental DME claims for 2007 billed
                    with the RP modifier. Many of these claims represented replacement
                    batteries for glucose monitors.

                    We selected a stratified random sample of 499 allowed repair claims 45
                    with HCPCS codes with the RP modifier or HCPCS code E1340 from

                      45 Typically, a repair claim will have individual line items for the replacement part(s)
                    and the associated labor costs.



 OEI-07-08-00550    A REVIEW   OF   CLAIMS   FOR   C A P P E D R E N TA L D U R A B L E M E D I C A L E Q U I P M E N T   9
I N T R O D        U C T         I O N


                    four strata as shown in Table 1. For each sampled claim, we requested
                    repair records from suppliers to determine whether the capped rental
                    DME repair claims met payment and documentation requirements.
                    Table 1: Sample Stratification of Allowed Capped Rental DME Repair Claims
                                                                                                         Sample               Adjusted
                    Stratum                           Definition              Population                                                 Responses
                                                                                                           Size            Sample Size


                                       Allowed claims from
                    1                     $1.00 to $100.00                          440,661                        95               93          91

                                       Allowed claims from
                    2                  $100.01 to $500.00                           191,658                      191               187          184

                                       Allowed claims from
                    3                 $500.01 to $5,000.00                            36,779                     159               159          155

                                       Allowed claims over
                    4                            $5,000.00                                   54                    54               53           52

                        Total                                                       669,152                      499               492          482
                    Source: OIG analysis of claims data, 2010.


                    We removed three sampled claims because they involved open OIG
                    investigations and four sampled claims because they did not match the
                    study criteria upon review of the documentation, creating an adjusted
                    sample size of 492 repair claims. The four claims not matching the
                    study criteria appeared as repairs for capped rental DME according to
                    claims data, but upon review of the record, we determined that each
                    claim was not a repair for capped rental DME. We received responses
                    from suppliers for 482 of our sampled claims for a response rate of
                    98 percent. Of the 10 sampled claims we were unable to review, 7 were
                    from suppliers that were out of business and 3 were from suppliers that
                    we were unable to locate and that we could not confirm remained in
                    business.

                    Since the RP modifier used at the time of our review indicated both
                    repair and replacement, we could not differentiate between claims for
                    repair or replacement without reviewing the records. Based on a review
                    of the records associated with the 482 claims, we determined that
                    335 were for repair of capped rental DME. 46 We used these claims to
                    determine the extent to which repair claims met Medicare payment
                    requirements. The remaining 147 claims were generally for




                        46 Eighty-seven percent of the sampled claims were for PMDs.




 OEI-07-08-00550    A REVIEW    OF   CLAIMS   FOR   C A P P E D R E N TA L D U R A B L E M E D I C A L E Q U I P M E N T                   10
I N T R O D        U C T        I O N


                    replacement of capped rental DME when it was determined that the
                    original DME no longer met the beneficiaries’ needs.
                    Interviews with DME suppliers. Prior to our record review, we interviewed
                    DME suppliers to ascertain their practices and better develop our data
                    collection instruments. We asked suppliers questions about volume of
                    repairs, nature and location of repairs, followup with beneficiaries,
                    methods for accessing policy guidance, documentation used to support
                    claims, warranty coverage, and accumulated repair costs.
                    Review of repair records. We reviewed repair records provided by
                    suppliers for sampled claims to determine whether each repair met
                    Medicare requirements or whether supplier practices created
                    vulnerabilities in claims payment. Specifically, we reviewed the extent
                    to which records for repairs to capped rental DME indicated that:
                    Requirements:
                     a prescription existed documenting DME medical necessity, 47,                                       48


                         service was documented, 49

                         delivery was documented, 50

                         the DME was under warranty, 51 and

                         service fees were charged to beneficiaries. 52

                    Additional matters considered:
                     a valid serial number was provided, and

                         repair costs exceeded 60 percent of the new purchase price.
                    Objective 5
                    To describe how certain DME supplier practices adversely affected
                    beneficiaries.




                        47 CMS, Medicare Claims Processing Manual (Internet Only Manual), Pub. 100-04,
                    ch. 20, § 10.2. Accessed online at http://www.cms.gov on January 22, 2010.
                        48 CMS,Program Integrity Manual (Internet Only Manual), Pub. 100-08, ch. 5, § 5.2.1.
                    Accessed online at http://www.cms.gov on January 22, 2010.
                        49 The Act § 1833(e).
                        50 42 CFR § 424.57(c)(12).
                        51 42 CFR §§ 414.229(f)(3) and 414. 210(e)(1).
                        52 CMS, Medicare Claims Processing Manual (Internet Only Manual), Pub. 100-04,
                    ch. 1, § 30.3.2. Accessed online at http://www.cms.gov on January 22, 2010.



 OEI-07-08-00550    A REVIEW   OF   CLAIMS   FOR   C A P P E D R E N TA L D U R A B L E M E D I C A L E Q U I P M E N T        11
I N T R O D        U C T        I O N


                    Beneficiary interviews. In addition to conducting a record review, we
                    conducted structured interviews with beneficiaries who received repairs
                    for their capped rental DME in excess of $5,000 in 2007.

                    We conducted structured interviews with beneficiaries representing
                    34 of the 53 sampled claims in stratum four. At the time of our review,
                    eight beneficiaries were deceased. Eleven beneficiaries were
                    unreachable by U.S. Postal Service mail or telephone. We requested
                    that beneficiaries confirm whether repairs billed for capped rental DME
                    were actually rendered. We also asked the beneficiaries to describe the
                    services they received and any problems they encountered with
                    suppliers that may have adversely affected their ability to use the
                    capped rental DME.
                    Overall limitations. During our review period, we were unable to
                    determine from claims data alone the difference between a repair and a
                    replacement of DME using the RP modifier. We were able to make
                    definitive determinations based upon review of the records. This
                    reduced the number of sampled units we could review for payment
                    errors.
                    Standards. This study was conducted in accordance with the Quality
                    Standards for Inspections approved by the Council of the Inspectors
                    General on Integrity and Efficiency.




 OEI-07-08-00550    A REVIEW   OF   CLAIMS   FOR   C A P P E D R E N TA L D U R A B L E M E D I C A L E Q U I P M E N T   12
  F   I N D I N G         S
         F I N D I N G S

                                                                                                           For the period 2006 to 2008,
   From 2006 to 2008, Medicare erroneously allowed
                                                                                                           Medicare erroneously allowed
$2.2 million for routine maintenance and servicing of                                                      31,939 routine maintenance
          capped rental DME with rental periods after                                                      and servicing claims totaling
                           implementation of the DRA                                                       $2,211,106 for capped rental
                                                                                                           DME with rental periods that
                         began after implementation of the DRA. 53
                         Medicare has never allowed claims for maintenance and servicing
                         during the rental period; therefore, MACs should not have had to make
                         changes to their payment systems to prevent these payments after
                         implementation of the DRA. Additionally, MACs should not have
                         allowed maintenance and servicing after 13 months of continuous rental
                         for beneficiary-owned capped rental DME (see Table 2).
                         Table 2: Erroneous Maintenance and Servicing Claims

                                         During Rental                      During Rental
                                                                                                             Beneficiary-Owned         Beneficiary-Owned
                        Year                    Period                             Period
                                                                                                               (Allowed Claims)         (Allowed Amount)
                                     (Allowed Claims)                  (Allowed Amount)

                        2006*                       1,303                                $88,643                                119              $19,928
                        2007                      10,508                                $731,702                               6,471            $519,463
                        2008                      10,488                                $575,768                               3,050            $275,602
                         Total                    22,299                             $1,396,113                                9,640            $814,993
                        *Beneficiary-owned results from 2006 are not comparable to those for other years because
                        section 5101(a) of the DRA became effective January 1, 2006. Aside from beneficiary-purchased DME,
                        title to capped rental DME that was under a rental agreement did not begin to be transferred to
                        beneficiaries until February 1, 2007 (13 months after implementation).
                        Source: OIG analysis of claims data, 2010.



                         Erroneous routine maintenance and servicing claims occurred for
                         several categories of capped rental DME. The erroneous claims most
                         commonly included nebulizers (14,420), continuous positive airway
                         pressure devices (5,378), hospital beds (3,540), standard wheelchairs
                         (2,111), and elevating leg rests for wheelchairs (1,377). These five
                         categories represented 84 percent of erroneous claims.




                            53 Medicare allowed 6,344,684 claims for routine maintenance and servicing of all capped
                         rental DME, totaling $456,328,500. Most of these allowed claims were for maintenance and
                         servicing of capped rental DME with rental periods beginning prior to implementation of
                         the DRA.



      OEI-07-08-00550    A REVIEW   OF   CLAIMS   FOR   C A P P E D R E N TA L D U R A B L E M E D I C A L E Q U I P M E N T                   13
F   I N D I N G        S


                                                             Medicare erroneously allowed
        From 2006 to 2008, Medicare erroneously
                                                             40,452 claims totaling nearly
        allowed nearly $4.4 million for repairs for          $4.4 million for repairs of
         capped rental DME during rental periods             beneficiary-rented capped rental
                                                             DME. These payments have
                      never been permitted, before or after the DRA. These repair claims
                      were erroneous because costs for repair of rented capped rental DME
                      are included in the monthly rental payment to suppliers. Over the
                      3-year period after implementation of the DRA, erroneously allowed
                      claims almost doubled and erroneously allowed payments increased by
                      nearly $1.8 million (see Table 3).
                      Table 3: Erroneous Rental Repair Claims

                       Year                                                Allowed Claims                                     Allowed Amount

                       2006                                                                   7,478                                 $493,178
                       2007                                                                 13,507                                 $1,631,757
                       2008                                                                 19,467                                 $2,257,190
                           Total                                                            40,452                                 $4,382,125
                       Source: OIG analysis of claims data, 2010.


                      Erroneous repair claims occurred for several different categories of
                      capped rental DME. The erroneous claims most commonly included
                      continuous positive airway pressure devices (12,215), nebulizers
                      (11,489), infusion pumps (5,531), standard wheelchairs (3,770), and
                      hospital beds (2,573). These five categories represented 88 percent of
                      erroneous claims.



In 2007, Medicare allowed nearly $27 million for              Of the $90 million allowed for
                                                              capped rental DME repair
    repair claims for beneficiary-owned capped
                                                              claims in 2007, nearly
         rental DME that failed to meet payment
                                                              $27 million was for claims
                                   requirements               associated with payment errors.
                      These claims represent 27 percent of all allowed claims for repair of
                      capped rental DME meeting the parameters of the methodology, which
                      involved reviewing documentation for allowed claims. See Appendix A
                      for point estimates and confidence intervals. See Appendix B for case
                      examples of additional allowed claims failing to meet payment
                      requirements.



    OEI-07-08-00550   A REVIEW     OF   CLAIMS   FOR   C A P P E D R E N TA L D U R A B L E M E D I C A L E Q U I P M E N T                     14
F   I N D I N G        S


                      Medicare claims that did not meet payment requirements (claim and
                      payment errors) are summarized in Table 4.
                      Medicare-allowed claims that did not meet payment requirements
                      Payment errors included (1) lack of documentation of medical necessity,
                      (2) lack of documentation of service, (3) lack of documentation of
                      delivery, and (4) repairs for capped rental while under warranty.
                      Additionally, we identified suppliers that violated Medicare assignment
                      policy by charging service fees to beneficiaries.
                      Table 4: Payment Errors

                                                                               Sample                Claims in Error
                       Type of Error                                                                                              Payments in Error
                                                                                 Size                  (Percentage)

                       Repair or replacement

                       Lack of documentation of
                                                                                      482                              20.4             $20,772,891
                       medical necessity

                       Lack of documentation of
                                                                                      482                                   4.8          $4,624,264
                       service

                       Lack of documentation of
                                                                                      482                                   1.8          $1,234,534
                       delivery

                           Total repair or replacement
                                                                                      482                             27.1*             $26,631,689
                           errors

                       Repair only

                       Repairs while under warranty                                   335                                   2.6          $1,912,669

                           Total errors (gross)                                       482                             29.4*            $28,738,808*

                       (Overlapping errors)                                           482                              (2.3)           ($1,943,653)

                           Total errors (net)                                         482                              27.1             $26,795,154

                       *Totals may not sum exactly because of rounding and the effect of having denominators of
                       335 and 482 for different statistics. Overlapping errors are subtracted from gross errors to
                       derive the net errors.
                       Source: OIG analysis of claims data, 2010.


                      Lack of documentation of medical necessity. Twenty percent of claims were
                      associated with supplier-provided records that did not include
                      prescriptions to document medical necessity of the capped rental
                      DME. 54 Without such documentation, determination factors were
                      unknown, such as the anticipated timeframe that the capped rental
                      DME would be needed, expected therapeutic benefit, the physician’s


                        54 We counted an initial prescription or a prescription for the repair as documentation of
                      medical necessity for the claim.



    OEI-07-08-00550   A REVIEW   OF   CLAIMS   FOR   C A P P E D R E N TA L D U R A B L E M E D I C A L E Q U I P M E N T                        15
F   I N D I N G        S


                      involvement in supervising the use of the prescribed capped rental
                      DME, and the detailed description of the beneficiary’s clinical and
                      functional status.
                      Lack of documentation of service or delivery. Five percent of claims lacked
                      sufficient information to indicate the service provided. An additional
                      2 percent of claims had no evidence of delivery or evidence that the
                      beneficiary actually received the capped rental DME replacement parts
                      or repaired DME as required under supplier standards.
                      Repairs while under warranty. Three percent of repair claims were for
                      repairs that should have been covered under warranty. Separately, we
                      also identified an instance in which the documented date of service
                      would have been under warranty, but the claim form submitted by the
                      supplier indicated a date of service much later than noted in other
                      documentation. This new date was outside of the warranty period, and
                      Medicare allowed the claim.

                      The percentage of claims that did not comply with this policy might
                      have been greater because certain suppliers provided invalid serial
                      numbers or did not provide serial numbers. Without correct serial
                      numbers, we were unable to check warranty coverage. Additionally, we
                      found that larger PMD manufacturers have systems that suppliers can
                      query to determine warranty coverage. However, some of the
                      manufacturers remove serial numbers from these systems for items that
                      were manufactured more than 5 years ago, which prevented
                      determination of warranty coverage.
                      Service fees charged for repairs. Suppliers that have accepted Medicare
                      assignment of benefits may not charge beneficiaries additional fees for
                      Medicare-covered services. Record reviews indicated that suppliers that
                      accepted assignment charged beneficiaries service fees ranging from
                      $25 to $100 for 2 percent of claims. 55 These fees were in addition to the
                      normal copays and deductibles. For example, one supplier charged a
                      $20 travel service fee when it picked up a beneficiary’s PMD for repair
                      work and a $40 travel service fee when it returned the chair to her
                      home. Another record indicated that a beneficiary paid $5 in cash and
                      an additional $20 with a personal check. Because the suppliers did not




                        55 Based on a lack of information in claims data, we were unable to determine whether
                      sampled repair claims were for rented or purchased capped rental DME.



    OEI-07-08-00550   A REVIEW   OF   CLAIMS   FOR   C A P P E D R E N TA L D U R A B L E M E D I C A L E Q U I P M E N T   16
F   I N D I N G        S


                      submit separate line item claims for these service fees, the extent of the
                      problem is unknown.

                                                             Of the $90 million allowed for
    In 2007, Medicare allowed nearly $29 million
                                                             capped rental DME repair claims
               for questionable repair claims for
                                                             in 2007, nearly $29 million were
          beneficiary-owned capped rental DME                questionable (i.e., suppliers did
                      not provide serial numbers, suppliers provided invalid serial numbers,
                      and repair costs claims on sampled dates of service exceeded 60 percent
                      of the purchase price of new capped rental DME). These claims
                      represent 49 percent of all allowed claims for repair of capped rental
                      DME. The net result of either erroneous claims (the prior finding) or
                      claims that were questionable was 62 percent, or nearly $39 million.
                      Medicare claims that were questionable are summarized in Table 5.
                      See Appendix A for point estimates and confidence intervals for claims
                      that were questionable. See Appendix C for statistics on net results of
                      payment errors and claims that were questionable.
                      Table 5: Questionable Claims for Beneficiary-Owned Capped Rental DME

                                                                         Sample                      Claims                    Allowed
                       Questionable Practice
                                                                           Size                (Percentage)                   Amounts

                       Supplier did not provide serial
                                                                                335                           24.8          $10,943,415
                       number

                       Supplier provided invalid serial
                                                                                335                           23.2          $13,921,304
                       number

                       Repair costs on the date of
                       service exceeded 60 percent of                           335                             2.9          $6,687,925
                       the new purchase price

                           Total (gross)                                        335                           50.9          $31,552,644

                       (Overlapping)                                            335                          (1.6)          ($2,697,105)

                           Total (net)                                          335                           49.3          $28,855,539

                       Overlapping amounts are subtracted from gross amounts to derive the net amounts.
                       Source: OIG analysis of claims data, 2010.

                      Suppliers did not provide serial numbers or provided invalid serial numbers.
                      Suppliers did not provide serial numbers for 25 percent of repairs and
                      provided invalid serial numbers for 23 percent of repairs, which
                      prevented us from determining the models and therefore the purchase
                      prices of new capped rental DME. Overall, 48 percent of claims had
                      insufficient information for us to identify the manufacturers, makes,
                      and models of capped rental DME. This prevented us from determining
                      the replacement cost of some capped rental DME, as discussed below.


    OEI-07-08-00550   A REVIEW   OF   CLAIMS   FOR   C A P P E D R E N TA L D U R A B L E M E D I C A L E Q U I P M E N T                  17
F   I N D I N G        S


                      Repairs exceeded 60 percent of replacement cost. The costs of repairs
                      associated with the dates of service for 3 percent of sampled claims
                      exceeded 60 percent of the purchase prices for new capped rental DME.
                      If total accumulated repair costs exceed 60 percent of the replacement
                      cost for capped rental DME and the items have been in use for less than
                      5 years, the MAC may choose to hold suppliers responsible for
                      replacement. 56 Since our analysis included only a single date of service,
                      our estimate of the number of items for which repairs exceeded
                      60 percent of the replacement cost is an underestimate. Accumulated
                      repair claims would likely have been greater over the lifetime of the
                      item. Because of missing and invalid serial numbers, we could not
                      calculate the replacement cost for 48 percent of new capped rental
                      DME; thus our estimate of vulnerable payments is conservative.
                      Because tracking repair costs is not a CMS requirement, CMS staff
                      indicated to us that they have not provided guidance to MACs on how to
                      track accumulated repair costs.




                        56 See 71 Fed. Reg., No. 217 (Nov. 9, 2006) p. 65921.




    OEI-07-08-00550   A REVIEW   OF   CLAIMS   FOR   C A P P E D R E N TA L D U R A B L E M E D I C A L E Q U I P M E N T   18
F   I N D I N G        S



     Supplier practices adversely affected some               Our interviews with beneficiaires
                                                              representing 34 of the 53 high-cost
            beneficiaries with high-cost repairs
                                                              claims revealed that some
                      supplier practices adversely affected beneficiaries’ quality of life and
                      activities of daily living. Certain suppliers failed to properly customize
                      PMDs, rendering them useless to beneficiaries. Even though Medicare
                      will pay for loaner DME when capped rental DME is being repaired,
                      some suppliers did not offer this service when repairing PMDs, leaving
                      some beneficiaries immobile. Some beneficiaries reported difficulty in
                      contacting suppliers. Finally, beneficiaries reported that some suppliers
                      failed to provide information and instruction, as required.
                      Some suppliers billing for high-cost repairs failed to properly customize
                      Medicare-allowed capped rental DME. PMDs are medically necessary for
                      beneficiaries who cannot effectively perform mobility-related activities
                      of daily living using other mobility-assistive equipment, such as a cane,
                      walker, or manual wheelchair. 57 PMDs for beneficiaries with severe
                      mobility limitations can be upgraded with power options and other
                      electronic features to accommodate beneficiaries’ specific mobility needs.
                      In some cases, beneficiaries did not receive the proper customization to
                      meet their needs. Below are a few examples:

                           A beneficiary reported multiple repairs to his chair. He stated that
                            nothing on his current PMD is original aside from the frame. The
                            computer system for his chair had been repaired 11 times and still
                            did not meet his needs because it did not function properly. Further,
                            the supplier repaired his $16,000 power tilt and recline seating
                            system twice, but the repairs did not meet his needs for daily
                            activities. The last attempt to properly fit the seating system
                            included an inappropriately sized foam pad placed in the back of the
                            chair; this failed to work.

                           A beneficiary reported that he was provided a PMD that he was
                            unable to use because he would slide out of the chair. The supplier
                            indicated to him that it would fashion a pole for the chair that would
                            keep him from sliding out. The beneficiary reported that the
                            supplier never fashioned the pole; he keeps the PMD in a closet
                            because he cannot use it.


                          57 CMS’s Medicare Learning Network,
                                                           Medicare Coverage of Power Mobility Devices:
                      Power Wheelchairs and Power Operated Vehicles. Accessed at http://www.cms.gov on
                      January 22, 2010.



    OEI-07-08-00550   A REVIEW   OF   CLAIMS   FOR   C A P P E D R E N TA L D U R A B L E M E D I C A L E Q U I P M E N T   19
F   I N D I N G        S


                          One record for a beneficiary noted that she received an evaluation
                           for a new PMD after only 3 months of using her current PMD. The
                           beneficiary was given a new PMD, but she was unable to operate its
                           controls because of her paralysis.

                      Some suppliers did not provide loaner DME. Although suppliers are not
                      required to loan DME, suppliers receive additional Medicare
                      reimbursement when loaning DME to beneficiaries while their original
                      items are being repaired. Claims information indicated that
                      beneficiaries received loaner DME for only 22 of our sampled claims.
                      Without loaner DME, beneficiaries may not have the ability to maintain
                      their daily functioning. For example:

                          A beneficiary reported that although his supplier is located minutes
                           away from the PMD manufacturer, replacement parts took weeks to
                           arrive because they had to be mailed. The supplier provided a
                           loaner only when the supplier initially ordered his new chair.
                           Although the PMD had been repaired frequently since then, the
                           supplier never again provided a loaner PMD. The beneficiary, who
                           has quadriplegia, reported that he was completely immobile until
                           his PMD was repaired.

                      Some beneficiaries reported difficulty in reaching their suppliers for
                      high-cost repairs. Medicare requires that suppliers answer questions
                      and respond to complaints beneficiaries have about Medicare-covered
                      items that they have sold or rented. Four of the beneficiaries
                      interviewed reported difficulty in reaching their suppliers. Specifically:

                          One beneficiary reported that a supplier often would not answer the
                           telephone or return calls. The beneficiary had to call repeatedly to
                           finally reach a customer service representative. Because of such
                           poor service by this supplier and problems with the PMD, the
                           beneficiary purchased a backup manual wheelchair from eBay for
                           $300 and planned to buy a $1,200 PMD from a private owner as a
                           backup.

                          Two beneficiaries reported that their PMDs needed repairs and/or
                           modifications, but because their suppliers had gone out of business
                           without notification, they had to locate new suppliers that were
                           willing to repair and/or modify their PMDs.




    OEI-07-08-00550   A REVIEW   OF   CLAIMS   FOR   C A P P E D R E N TA L D U R A B L E M E D I C A L E Q U I P M E N T   20
F   I N D I N G        S


                      Not all suppliers provided beneficiaries with instructions about the proper
                      use of their high-cost capped rental DME, as required. Suppliers must
                      provide beneficiaries with necessary information on how to use the
                      equipment safely and effectively. If beneficiaries are provided with
                      information regarding the general maintenance of their capped rental
                      DME, unnecessary repairs or replacements to items may be less likely.
                      Without this information, beneficiaries may not know how to maintain
                      their capped rental DME. Collectively:

                          Eight beneficiaries reported that the suppliers that provided their
                           items did not provide any information about the items’ warranties,
                           common problems, or general maintenance.




    OEI-07-08-00550   A REVIEW   OF   CLAIMS   FOR   C A P P E D R E N TA L D U R A B L E M E D I C A L E Q U I P M E N T   21
   RR EE CC OO MM MM EE NN DD AA TT I I OO NN SS




                  From 2006 to 2008, Medicare erroneously allowed $2.2 million for
                  routine maintenance and servicing of capped rental DME with rental
                  periods after implementation of the DRA and $4.4 million for repairs of
                  capped rental DME during rental periods. In 2007, $27 million (27
                  percent) of Medicare claims for repairs of beneficiary-owned capped
                  rental DME did not meet payment requirements. In addition,
                  49 percent ($29 million) of claims during 2007 were questionable. A net
                  62 percent ($39 million) of claims were either erroneously allowed or
                  were questionable. Further, our beneficiary interviews revealed that
                  certain supplier practices adversely affected those beneficiaries.

                  CMS should take action to reduce erroneous payments and ensure
                  quality services for beneficiaries. To accomplish this, we recommend
                  that CMS:
                  Implement an edit to deny claims for routine maintenance and servicing of
                  capped rental DME with rental periods beginning after January 1, 2006
                  CMS should ensure that routine maintenance and servicing claims are
                  denied for capped rental DME with rental periods beginning after
                  January 1, 2006.
                  Implement an edit to deny claims for repairs of beneficiary-rented capped
                  rental DME
                  CMS should ensure that claims for repairs during the rental period are
                  never allowed.
                  Improve enforcement of existing payment requirements for beneficiary-
                  owned capped rental DME
                  CMS should ensure that claims for repairs of capped rental DME
                  include documentation of medical necessity (for the initial prescription
                  of the item), service, and delivery (if applicable). CMS should also
                  ensure that claims for repairs are not allowed for capped rental DME
                  under warranty and enforce Medicare assignment policy (i.e., when
                  DME suppliers charge beneficiaries service fees).




OEI-07-08-00550   A REVIEW   OF   CLAIMS   FOR   C A P P E D R E N TA L D U R A B L E M E D I C A L E Q U I P M E N T   22
R   E C O        M M E N D A T                  I O N               S


                      Consider whether to require MACs to track accumulated repair costs of
                      capped rental DME
                      CMS should consider requiring MACs to obtain serial numbers of
                      repaired equipment and track accumulated repair costs of capped rental
                      DME in the same way it tracks repair costs of prosthetics. This would
                      allow MACs to identify and prevent payment for repairs that exceed
                      100 percent of the purchase price for replacement capped rental DME,
                      which is not allowed. This same technique could be used to identify
                      claims for accumulated repairs that exceed 60 percent of the purchase
                      price for replacement capped rental DME.
                      Develop and implement safeguards to ensure that beneficiaries have access
                      to the services they require
                      CMS could update the supplier standards and guidance to increase
                      protections for beneficiary-purchased DME with respect to not charging
                      extra service fees, such as prohibiting service fees for purchased capped
                      rental DME. CMS could promote access to suppliers through resources
                      such as a listing of capped rental DME suppliers that provide
                      high-quality services integrated with a listing of suppliers that routinely
                      accept assignment.
                      Take appropriate action on erroneously allowed claims for maintenance and
                      servicing, repair, and payment errors
                      We will forward information on erroneously allowed claims identified in
                      our review to CMS in a separate memorandum.


                      AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                      RESPONSE
                      In its written comments on the report, CMS agreed that maintaining
                      strong and effective controls to ensure accurate payment of capped
                      rental DME claims is essential. CMS responded positively to each of
                      our six recommendations and indicated that, in general, it will work to
                      improve its comprehensive oversight of capped rental maintenance and
                      servicing.

                      In response to the first and second recommendations, CMS stated that
                      it implemented claim edits in Transmittal 1177 (Change Request 5461)
                      in February 2007 to instruct contractors to deny claims for maintenance
                      and servicing of capped rental items and pay claims only for beneficiary-
                      owned capped rental items. In view of our findings, CMS will conduct
                      further systems analysis and implement additional edits, as required, to
                      ensure these claims are denied.

    OEI-07-08-00550   A REVIEW   OF   CLAIMS   FOR   C A P P E D R E N TA L D U R A B L E M E D I C A L E Q U I P M E N T   23
R   E C O        M M E N D A T                  I O N               S


                      In response to the third recommendation, CMS concurred and said it
                      will communicate the policy of nonpayment for repairs and maintenance
                      for items under a manufacturer’s or supplier’s warranty to contractors
                      and suppliers. CMS will also issue a Medicare Learning Network
                      article to the provider and supplier community to emphasize that
                      documentation requirements will be enforced.

                      In response to the fourth recommendation, CMS agreed to consider the
                      feasibility of requiring MACs to obtain serial numbers of repaired
                      equipment and track accumulated repair costs.

                      In response to the fifth recommendation, CMS stated that it will issue
                      guidance to DME suppliers advising them that beneficiaries should not
                      be charged service fees above the capped rental fee unless an Advanced
                      Beneficiary Notice is signed by the beneficiary.

                      In response to the sixth recommendation, CMS concurred and said it
                      will take the appropriate action and send information about the
                      erroneously allowed claims to the contractors.

                      The full text of CMS’s comments can be found in Appendix D.




    OEI-07-08-00550   A REVIEW   OF   CLAIMS   FOR   C A P P E D R E N TA L D U R A B L E M E D I C A L E Q U I P M E N T   24
                          A P P E N D I X                               ~            A

Table A-1: Point Estimates and Confidence Intervals

 Description                                                                                                    Sample                      Point
                                                                                                                                                            95% Confidence Interval
                                                                                                                Size (n)                 Estimate


 Statistics from Table 4

 Percentage of claims that lacked documentation of medical necessity                                                  482                        20.4                       14.8–26.0

 Allowed amount of claims that lacked documentation of medical necessity                                              482           $20,772,891             $16,707,498–$24,838,284

 Percentage of claims that lacked documentation of service                                                            482                             4.8                     1.6–8.0

 Allowed amount of claims that lacked documentation of service                                                        482             $4,624,264              $2,263,479–$6,958,049

 Percentage of claims that lacked documentation of delivery                                                           482                             1.8                    0.6–5.5*

 Allowed amount of claims that lacked documentation of delivery                                                       482             $1,234,534               $120,026–$2,349,042

 Percentage of claims that lacked documentation of medical necessity, service, or delivery
 (gross)                                                                                                              482                        27.1                       20.2–34.0

 Allowed amount of claims that lacked documentation of medical necessity, service, or
 delivery (gross)                                                                                                     482           $26,631,689             $21,805,711–$31,457,666

 Percentage of claims for repairs while under warranty                                                                335                             2.6                    1.0–6.4*

 Allowed amount of claims for repairs while under warranty                                                            335             $1,912,669               $438,549–$3,386,789

 Percentage of claims that lacked documentation of medical necessity, service, or
 delivery or were under warranty (gross)                                                                              482                        29.4                       22.3–36.5

 Allowed amount of claims that lacked documentation of medical necessity, service, or
                                                                                                                      482           $28,738,808             $23,573,956–$33,903,659
 delivery or were under warranty (gross)

 Percentage of claims that lacked documentation of medical necessity, service, or
                                                                                                                      482                             2.3                    0.9–5.7*
 delivery or were under warranty (overlapping)

 Allowed amount of claims that lacked documentation of medical necessity, service, or
                                                                                                                      482             $1,943,653               $480,217–$3,407,090
 delivery or were under warranty (overlapping)

 Percentage of claims that lacked documentation of medical necessity, service, or
                                                                                                                      482                        27.1                       20.8–33.4
 delivery or were under warranty (net)

 Allowed amount of claims that lacked documentation of medical necessity, service, or
 delivery or were under warranty (net)                                                                                482           $26,795,154             $22,202,772–$31,387,536


 Statistics from Table 5

 Percentage of repair claims for which the suppliers did not provide the serial numbers                               335                        24.8                       17.9–31.7

 Allowed amount for repair claims for which the suppliers did not provide the serial numbers                          335           $10,943,415              $7,711,195–$14,175,636

 Percentage of repair claims with invalid serial numbers                                                              335                        23.2                       16.5–29.8

 Allowed amount of repair claims with invalid serial numbers                                                          335           $13,921,304             $10,509,611–$17,333,007


                                                                                                                                                                 continued on next page


                     OEI-07-08-00550          A REVIEW     OF   CLAIMS   FOR   C A P P E D R E N TA L D U R A B L E M E D I C A L E Q U I P M E N T                         25
              A    P     P E N D         I X        ~          A



Table A-1: Point Estimates and Confidence Intervals, Continued
                                                                                                             Sample                      Point
Description                                                                                                                                              95% Confidence Interval
                                                                                                             Size (n)                 Estimate

Percentage of allowed claims for repair costs on the date of service that exceeded
60 percent of the new purchase price                                                                               335                             2.9                   1.0–4.8

Allowed amount of repair costs on the date of service that exceeded 60 percent
of the new purchase price                                                                                          335             $6,687,925              $4,095,793–$9,280,057

Percentage of repairs that had invalid serial numbers or no serial numbers provided or
whose repair costs on the date of service exceeded 60 percent of the new purchase                                  335                        50.9                     42.9–58.9
price

Allowed amount of repairs that had invalid serial numbers or no serial numbers
provided, or whose repair costs on the date of service exceeded 60 percent of the new                              335           $31,522,644             $26,271,998–$36,833,290
purchase price

Percentage of repairs that had invalid serial numbers or no serial numbers provided
or whose repair costs on the date of service exceeded 60 percent of the new purchase                               335                             1.6                  0.1–2.6*
price (overlapping)

Allowed amount of claims for repairs that had invalid serial numbers or no serial
numbers provided or whose repair costs on the date of service exceeded 60 percent of                               335             $2,697,105               $936,258–$4,457,952
the new purchase price (overlapping)

Percentage of repairs that had invalid serial numbers or no serial numbers provided
or whose repair costs on the date of service exceeded 60 percent of the new purchase                               335                        49.3                     41.7–57.0
price (net)

Allowed amount of claims for repairs that had invalid serial numbers or no serial
numbers provided or whose repair costs on the date of service exceeded 60 percent of                               335           $28,855,539             $24,340,724–$33,370,354
the new purchase price (net)

Other statistics

Percentage of repair claims without serial numbers and without valid serial numbers                                335                        48.0                     40.3–55.6

Statistics from Appendix C not earlier provided

Percentage of erroneous claims and claims that were questionable (gross)                                           482                        76.7                     66.2–87.1

Allowed amount of erroneous claims and claims that were questionable (gross)                                       482           $51,102,079             $43,921,779–$58,282,379

Percentage of erroneous claims and claims that were questionable (overlapping)                                     482                        14.9                      9.4–20.5

Allowed amount of erroneous claims and claims that were questionable (overlapping)                                 482           $12,413,575              $8,899,211–$15,927,939

Percentage of erroneous claims and claims that were questionable (net)                                             482                        61.8                     54.4–69.1

Allowed amount of erroneous claims and claims that were questionable (net)                                         482           $38,688,504             $33,967,207–$43,409,801

* Confidence intervals were calculated using the logit transformation because of poor coverage properties of the standard approximation method
when a small number of sample elements possessed the characteristic of interest.

Source: Office of Inspector General analysis of claims data, 2010.




                       OEI-07-08-00550       A REVIEW   OF   CLAIMS   FOR   C A P P E D R E N TA L D U R A B L E M E D I C A L E Q U I P M E N T                       26
   A P P E N D I X                        ~            B

                  Case Examples of Allowed Claims That Failed To Meet Payment
                  Requirements

                  The following are included for illustrative purposes only and are not
                  included in our error projections for this finding.
                  Billing for more labor time than was provided. Allowed labor units often did
                  not match documentation provided by suppliers. For the 59 sampled
                  E1340 claim line items, 6 line items did not have documentation
                  supporting the number of units billed. In the extreme, a supplier billed
                  571 15-minute units (nearly 143 hours) for a single date of service. The
                  supplier identified the overpayment and submitted a voluntary
                  statement and refund indicating that only 291 15-minute units were
                  provided. The 291 units were allowed without further scrutiny by the
                  DME MAC even though the claim represented nearly 73 hours, or the
                  equivalent of 3 days, of labor for a single date of service. On
                  April 1, 2009, MACs implemented standardized labor times allowed for
                  common repairs, which may reduce the potential for labor billing abuse.
                  Billing for repairs that exceed the purchase price. Repairs for five claims on
                  our sampled date of service exceeded the purchase price of replacement
                  capped rental DME. In total, Medicare allowed $21,206 for these five
                  claims, $6,105 of which exceeded the purchase price of replacement
                  DME. Additional repair costs prior to the sampled date of service may
                  have also been reimbursed, which would increase the amount Medicare
                  paid in excess of the price of replacement DME for these five claims.
                  High-dollar claim allowed in error. One supplier provided a beneficiary a
                  replacement electronic wiring harness costing $141.91. The supplier
                  submitted a claim for 100 times that amount, or $14,191. Medicare
                  allowed $9,990 for the claim. We confirmed with the DME MAC
                  responsible for processing the claim that a $9,990 payment was made to
                  the supplier for the $141.91 part.




OEI-07-08-00550   A REVIEW   OF   CLAIMS   FOR   C A P P E D R E N TA L D U R A B L E M E D I C A L E Q U I P M E N T   27
   A P P E N D I X                           ~            C

                     Table C-1: Net Payment Errors and Questionable Claims


                                                                                      Claims of Concern
                  Type of Concern                                                                                          Allowed Amount (Total)
                                                                                           (Percentage)

                  Payment errors (net)                                                                        27.1                    $26,795,154

                  Questionable claims (net)                                                                   49.3                    $28,855,539

                   Gross concerns                                                                            76.7*                   $51,102,079*

                   Overlapping concerns                                                                     (14.9)                  ($12,413,575)

                   Net concerns                                                                               61.8                    $38,688,504
                  *Totals may not sum exactly because of rounding and the effect of having denominators of 335 and
                  482 for different statistics.

                  Source: Office of Inspector General analysis of claims data, 2010.




OEI-07-08-00550      A REVIEW   OF   CLAIMS   FOR   C A P P E D R E N TA L D U R A B L E M E D I C A L E Q U I P M E N T                      28
              A P PEN D                         x               D

                                   Agency Comments


/f,f.AYIC''-.t.~




~-1-                 DEPARTMENT OF HEALTH & HUMAN SERVICES                                   Centers for Medicare & Medicaid Services


                                                                                             Administrator
                                                                                             Washington, DC 20201




                   DATE:          MAY 1 1 2010
                   TO: 	         Daniel R. Levinson 

                                 Inspector General , 


                   FROM: 	       Marilyn Tavenner 

                                                     /S/
                                 Acting Administrator and Chief Operating Officer 


                   SUBJECT: 	 Office ofInspector General (DIG) Draft Report: "Capped Rental DME: A Review
                              of Repair Claims" (OEI-07-08-00550)

                   Thank you for the opportunity to review and comment on the Office of Inspector General's draft
                   report, "Capped Rental DME: A Review of Repair Claims." The Centers for Medicare &
                   Medicaid Services (CMS) appreciates the time and resources the DIG has invested to determine
                   the extent to which Medicare improperly paid claims for routine maintenance and servicing of
                   capped rental durable medical equipment (DME).

                   The DME items covered by Medicare are medical equipment that often requires maintenance
                   and repairs and Medicare paysDME suppliers for maintenance and repairs in certain
                   circumstances. Capped rental DME is a specific category of DME for which Medicare pays a
                   fee schedule amount that is capped after 13 continuous months of rental to a beneficiary. The
                   Deficit Reduction Act of 2005 (DRA) revised the payment rules for capped rental DME so that
                   ownership of the equipment would transfer to the beneficiaries after 13 continuous months of
                   rental.

                   During this audit, the DIG reviewed approximately 500 claims and conducted 34 beneficiary
                   interviews and concluded claims for repairs of beneficiary-owned capped rental DME were
                   improperly paid. The OIG's recommendations address strategies to reduce improper payments
                   and strengthen program integrity.

                   The eMS appreciates the DIG's efforts and insight on this report. As described in our detailed
                   responses, CMS agrees that maintaining strong and effective controls to ensure accurate payment
                   of capped rental DME claims is essential. In fact, CMS has already taken action to strengthen
                   Medicare claims processing edits to eJ?sure proper payments in this vulnerable area. We agree to
                   pursue additional analyses to validate the effectiveness of our claims processing and enforcement
                   requirements and, as necessary, implement improvements to ensure all systeins and requirements
                   achieve our goal of accurate payments. In general, the CMS will work to improve our
                   comprehensive oversight of capped DME rental maintenance and servicing. The CMS looks
                   forward to continually working with the OIG on issues related to waste, fraud and abuse in the
                   Medicare program.




      OEI·07·08·00550              A REVIEW OF CLAIMS FOR CAPPED RENTAL DURABLE MEDICAL EQUIPMENT                                       29
A   P   P E N D       I X        ~        D




    OEI-07-08-00550   A REVIEW   OF   CLAIMS   FOR   C A P P E D R E N TA L D U R A B L E M E D I C A L E Q U I P M E N T   30
A   P   P E N D       I X        ~        D




    OEI-07-08-00550   A REVIEW   OF   CLAIMS   FOR   C A P P E D R E N TA L D U R A B L E M E D I C A L E Q U I P M E N T   31
A   P   P E N D       I X        ~        D




    OEI-07-08-00550   A REVIEW   OF   CLAIMS   FOR   C A P P E D R E N TA L D U R A B L E M E D I C A L E Q U I P M E N T   32
   A C K N O W L E D G M E N T S

                  This report was prepared under the direction of Brian T. Pattison,
                  Regional Inspector General for Evaluation and Inspections in the
                  Kansas City regional office, and Deborah Walden, Deputy Regional
                  Inspector General.

                  Brian T. Whitley served as the team leader for this study. Other
                  principal Office of Evaluation and Inspections staff from the Kansas
                  City regional office who contributed to the report include Julie Dusold,
                  LCDR Mike Garner, and Rae Hutchison; central office staff who
                  contributed include Scott Manley and Megan Ruhnke.




OEI-07-08-00550   A REVIEW   OF   CLAIMS   FOR   C A P P E D R E N TA L D U R A B L E M E D I C A L E Q U I P M E N T   33
                 Office of Inspector General
                                  http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
